No.
In The

Supreme Court of tfje Mnttefc H>tate£
In re Grand Jury Investigation,
USAO No. 2018R01761
(Grand Jury Subpoenas to Pat Roe)
Doe Company,
Petitioner,
v.
United States of America,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 29th day of January 2021, that the Petition for a Writ of
Certiorari contains 8,843 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, DC 20036
andrewkim@goodwinlaw.com
(202) 346-4000
January 29, 2021

Counsel for Petitioner

